                                              MINE SAFETY AND HEALTH
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              MSHA’S OFFICE OF COAL MINE SAFETY AND
                                              HEALTH NEEDS TO STRENGTHEN ITS
                                              ACCOUNTABILITY PROGRAM




                                                                       Date Issued: August 24, 2007
                                                                       Report Number: 05-07-002-06-001
U.S. Department of Labor                           MSHA’s Office of Coal Mine Safety
Office of Inspector General
Office of Audit
                                                   and Health Needs to Strengthen its
                                                   Accountability Program

BRIEFLY…                                           WHAT OIG FOUND
Highlights of Report Number 05-07-002-06-          We determined that MSHA’s Accountability
001, to the Assistant Secretary for Mine           Program, as designed, did not provide
Safety and Health Administration, August,          adequate assurance that CMS&H’s oversight
2007.                                              responsibilities were effectively and
                                                   consistently performed. In addition,
WHY READ THE REPORT                                implementation of the Program varied across
                                                   CMS&H nationwide. Finally, CMS&H did not
The Federal Mine Safety and Health Act of          effectively use the results of its accountability
1977 (Mine Act) established the Mine Safety        reviews to improve its operations timely and
and Health Administration (MSHA) in 1978.          consistently.
MSHA is responsible for administering the
provisions of both the Mine Act and the 2006       WHAT OIG RECOMMENDED
MINER Act. MSHA’s primary goals are to (1)
eliminate fatal accidents; (2) reduce the
                                                   We made 14 recommendations to the
frequency and severity of nonfatal accidents;
                                                   Assistant Secretary for MSHA in the areas of
(3) minimize health hazards; and (4) promote
                                                   Design and Planning, Implementation, and
improved safety and health conditions in the
                                                   Reporting and Analysis to improve the
nation's mines.
                                                   performance and results of the Accountability
                                                   Program, as summarized below:
WHY OIG DID THE AUDIT
Based on our ongoing assessment of MSHA’s
                                                   • Ensure that the selection of enforcement
safety and health programs and
                                                   activities for review during HQRs and DPRs
responsibilities, we initiated an audit of
                                                   rely primarily on measures of internal
MSHA’s Accountability Program within
                                                   performance; and ensure the selection of
CMS&H. We focused on the Accountability
                                                   which enforcement activities to review during
Program within CMS&H, in part because of
                                                   DPRs cannot be influenced to prevent
the increase in coal mining accidents during
                                                   negative results.
CY 2006. As of December 31, 2006, there
were 47 fatalities in the coal mining sector, as
                                                   • Include mine visits during DPRs; ensure the
opposed to 28 and 22 coal mining fatalities
                                                   independence of DPR review teams; and
reported for CYs 2004 and 2005, respectively.
                                                   ensure a consistent type or depth of analyses
                                                   during DPRs.
The Accountability Program was established
to evaluate the quality of MSHA enforcement
activities by conducting peer reviews of           • Use a standard format for DPR reports;
District activities, and to provide reasonable     ensure the timely development,
assurance that policies and procedures are         implementation, and monitoring of corrective
being complied with consistently throughout        actions; use a centralized tracking system;
Coal Mine Safety and Health. The                   and ensure that identified common
Accountability Program has two levels of           deficiencies, corrective actions, and best
review, Headquarters Reviews of Districts          practices are communicated.
(HQR) and District Peer Reviews (DPR) of
field offices.                                     MSHA planned corrective actions to address 9
                                                   of our 14 recommendations. The remaining
                                                   five recommendations are unresolved. MSHA
READ THE FULL REPORT
                                                   did not fully agree with two and did not
To view the report, including the scope,           directly address two more recommendations.
methodology, and full agency response, go          MSHA did not provide a corrective action
to:                                                milestone date for one recommendation.
http://www.oig.dol.gov/public/reports/oa/200
7/05-07-002-06-001
                                                                    MSHA’s Office of Coal Mine Safety and Health
                                                                  Needs to Strengthen its Accountability Program



Table of Contents
                                                                                                                        PAGE


TABLE OF CONTENTS.................................................................................................. 1

EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

A. DESIGN AND PLANNING

    Criteria Used to Select Activities Reviewed during HQRs and
    DPRs Did Not Primarily Focus on CMS&H Performance and Did
    Not Adequately Consider All Activities.................................................................. 9

    Selection of Enforcement Activities to Review During a DPR
    Could be Structured to Prevent Negative Results .............................................. 12

B. IMPLEMENTATION

    District Peer Reviews Did Not Always Include Mine Visits ................................ 15

    District Peer Reviews Lacked Controls to Assure Independence ..................... 16

    District Peer Reviews Lacked Consistent Analyses ........................................... 18

    Interviews Were Not Required as an Integral Part of DPRs and
    HQRs....................................................................................................................... 20

C. REPORTING AND ANALYSIS

    CMS&H Did Not Require a Standard Format for District Peer
    Review Reports ..................................................................................................... 22

    The Development, Implementation, and Monitoring of Corrective
    Actions Needs Improvement................................................................................. 23

    CMS&H Had No Centralized System to Record and Track
    Deficiencies, Corrective Actions, and Best Practices Identified
    During DPRs and HQRs ........................................................................................ 27

    CMS&H Did Not Consistently Communicate Deficiencies,
    Corrective Actions, and Best Practices Resulting from DPRs and
    HQRs....................................................................................................................... 28


U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                                                           1
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




EXHIBITS...................................................................................................................... 31

      EXHIBIT A Attributes of Good Peer Review Programs...................................... 33

      EXHIBIT B District Peer Reviews Conducted in CYs 2005 and
      2006......................................................................................................................... 35

APPENDICES ............................................................................................................... 37

      APPENDIX A            Background .................................................................................... 39
      APPENDIX B            Objectives, Scope, Methodology, and Criteria ............................ 43
      APPENDIX C            Acronyms and Abbreviations ....................................................... 49
      APPENDIX D            Management Letter and MSHA Responses ................................. 51
      APPENDIX E            Agency Response to Draft Report ................................................ 67




                                                            U.S. Department of Labor—Office of Inspector General
  2
                                                                                Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




Executive Summary
The Office of Inspector General (OIG) completed a performance audit of the
Accountability Program administered by the Mine Safety and Health Administration
(MSHA). While the program encompasses both the Office of Coal Mine Safety and
Health (CMS&H) and Metal and Nonmetal Mine Safety and Health, our audit focused
only on CMS&H.

MSHA’s Accountability Program, which was revised in March 2004, was established to
(1) evaluate the quality of its enforcement activities, and (2) provide reasonable
assurance that its enforcement personnel consistently comply with policies and
procedures. The Program has two levels of accountability reviews, Headquarters
Reviews (HQR) of District Office operations and District Peer Reviews (DPR) of Field
Office operations.

Results

Preliminary findings were reported to MSHA in a September 29, 2006, management
letter and as a result, CMS&H began to take steps to improve their current program.
Further actions are needed to strengthen the integrity and usefulness of the program’s
results.

We performed work to accomplish three specific audit objectives. The three objectives,
our conclusions and recommendations are summarized as follows:

Objective 1 Was MSHA’s Accountability Program designed to provide adequate
            assurance that CMS&H’s oversight responsibilities were effectively and
            consistently performed?

MSHA’s Accountability Program, as designed, did not provide adequate assurance that
CMS&H’s oversight responsibilities were effectively and consistently performed.
Specifically, the selection of which enforcement activities to review during HQRs and
DPRs did not rely primarily on measures of internal performance and was usually
restricted to only a portion of CMS&H’s area of responsibility, and the selection of which
enforcement activities to review during DPRs could be influenced to prevent negative
results.

The criteria that CMS&H primarily used to select activities to examine in HQRs and
DPRs emphasized measures of mine operator performance and underground coal
mines. As a result, the potential of the accountability reviews to evaluate the quality of
enforcement activities and to provide assurance that CMS&H personnel were
consistently complying with policies and procedures was reduced. CMS&H could
strengthen the effectiveness of its accountability reviews by primarily focusing on


U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                         3
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


personnel-based performance indicators in selecting activities to review and by assuring
that all activities have the possibility of being selected for review.

In addition, for DPRs, an inherent conflict of interest existed for the District Manager in
choosing the work to be reviewed. This conflict created a risk that the District Manager
could improperly affect the selection to influence the review results. While our audit did
not identify any instances of improper influence by a District Manager, MSHA should
define the process to eliminate conflicts of interest (actual or perceived) or establish
controls to lessen the risk associated with such conflicts.

Objective 2 Was the Accountability Program adequately and consistently
            implemented throughout CMS&H?

Implementation of the Accountability Program varied across CMS&H. Accountability
reviews did not always: (1) include mine visits during DPRs, (2) assure the
independence of DPR review teams, (3) include a consistent type or depth of analyses
during DPRs, or (4) include interviews of appropriate individuals during DPRs and
HQRs. As a result, CMS&H officials lacked assurance that the Accountability Program
was adequately and consistently implemented nationwide. These deficiencies occurred
for several reasons: a) the Accountability Program Handbook did not provide sufficient
guidance to ensure consistent interpretation and implementation across districts; and
b) there was no regular communication among District Peer Review Coordinators
(DPRCs).

Requiring mine visits and interviews be conducted during DPRs and HQRs, improving
the independence of review team members, and assuring a consistent type and depth
of analyses during reviews will promote uniformity and improve the overall effectiveness
of CMS&H’s Accountability Program.

Objective 3 Was CMS&H effectively using the results of its accountability reviews to
            report, monitor and improve its operations?

CMS&H did not effectively use the results of its accountability reviews to improve its
operations timely and consistently. Specifically, the program did not (1) require a
standard format for DPR reports; (2) assure the timely development, implementation,
and monitoring of corrective actions; (3) have a centralized system to record and track
deficiencies, corrective actions and best practices; and (4) communicate identified
common deficiencies, corrective actions, and best practices. As a result, CMS&H could
not assure the timely and effective correction of individual deficiencies, identification of
systemic problems, and dissemination of best practices across the organization.

Improving the reporting and tracking of DPR and HQR results, assuring the timely and
effective correction of operational deficiencies, and sharing best practices across the
organization will strengthen the benefits from CMS&H’s Accountability Program.



                                          U.S. Department of Labor—Office of Inspector General
 4
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


Recommendations

In addition to the 5 recommendations reported in our management letter, we make the
following 14 recommendations to the Assistant Secretary for MSHA in the areas of
Design and Planning, Implementation, and Reporting and Analysis for the Accountability
Program:

Design and Planning

   1. Develop a process and criteria for the selection of activities to be examined
      during accountability reviews that emphasizes measures and indicators of
      CMS&H performance and provides the possibility that any activity (related to any
      mine operation) could be selected; and
   2. prohibit District Managers, or anyone in their subordinate chain of command,
      from selecting the activities to be reviewed in DPRs.

Implementation

   3. Ensure that accountability review team members cannot independently review
      work they have performed or supervised;
   4. require that DPR teams include at least one appropriate individual from outside
      the District conducting the review;
   5. provide guidance and instruction that is more detailed on specific procedures and
      tasks required to complete an effective DPR;
   6. establish a minimum scope for DPRs and HQRs that includes at least a review of
      two non-consecutive quarters of enforcement documentation from the preceding
      12 months;
   7. require that the timeframe for completion of DPRs and HQRs be planned in a
      way to ensure an accurate and thorough review; and
   8. require that DPRCs regularly communicate to discuss common issues,
      resolutions and best practices to ensure consistency and compliance nationwide.

Reporting and Analysis

   9. Require HQR teams to be involved in the development of appropriate corrective
       actions;
   10. require a timeframe be established for the development of all corrective action
       plans resulting from DPRs;
   11. incorporate dates into corrective action plans for the implementation and
       completion of actions resulting from DPRs and HQRs;
   12. require a timely evaluation by District Managers to ensure that completed
       corrective actions are adequately addressing the deficiencies identified during
       DPRs and HQRs;
   13. require that District Offices utilize the same tracking system, once it is developed
       an implemented by HQ, to record and track the results of their DPRs (e.g.,

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                         5
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


         identified deficiencies, planned corrective actions, potential best practices, etc.);
         and
     14. require that identified issues, deficiencies, corrective actions and best practices
         be communicated within a district’s field offices and disseminated nationwide, as
         appropriate, in a timely manner.

Agency Response

In response to the draft report, DOL’s Assistant Secretary for Mine Safety and Health
stated that he believes it contains sound recommendations and concepts applicable to
the MSHA Accountability Program. He stated that MSHA will work to improve
accountability practices within its enforcement programs through appropriate revisions
to its Accountability Program Handbook and the resultant restructuring of the program.

The Assistant Secretary stated that, on June 28, 2007, MSHA released the internal
review reports of the three fatal accidents at Sago, Aracoma, and Darby Mines in 2006.
Concurrent with the release of the results of these reviews, MSHA also announced the
establishment of the Office of Accountability. The purpose of this office will be to
increase oversight of MSHA’s accountability and enforcement programs to ensure that
necessary management controls are fully implemented and effective.

The Assistant Secretary further stated that, as noted in the findings of MSHA’s internal
reviews, and supported by the recommendations in the OIG’s report, MSHA must
improve oversight of its Accountability Program to correct past deficiencies and prevent
potential future lapses in enforcement.

On July 27, 2007, MSHA provided a milestone date of January 1, 2008, for revising its
Accountability Program Handbook, which will take into consideration our
recommendations.

See Appendix E for the agency’s complete response to our draft report.

OIG Conclusion

The actions proposed by MSHA address 9 of our 14 recommendations; the 9
recommendations are resolved. They will be closed after MSHA provides
documentation that the agreed upon corrective actions have been completed. The
remaining 5 recommendations are unresolved. MSHA did not fully agree to
recommendations 2 and 4 and did not directly address recommendations 7 and 8. In
addition, MSHA did not provide a corrective action milestone date for recommendation
13.




                                           U.S. Department of Labor—Office of Inspector General
 6
                                                               Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program



U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC 20210




                         Assistant Inspector General’s Report


Mr. Richard E. Stickler
Assistant Secretary for
Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, VA 22209-3939

The Office of Inspector General (OIG), Office of Audit, conducted a performance audit
of the Mine Safety and Health Administration’s (MSHA’s) Accountability Program. While
the program encompasses both the Office of Coal Mine Safety and Health (CMS&H)
and Metal and Nonmetal Mine Safety and Health, this audit focused only on CMS&H.
Specifically, we performed work to address the following questions:

   1. Was MSHA’s Accountability Program designed to provide adequate assurance
      that CMS&H’s oversight responsibilities were effectively and consistently
      performed?

   2. Was the Accountability Program adequately and consistently implemented
      throughout CMS&H?

   3. Was CMS&H effectively using the results of its accountability reviews to report,
      monitor and improve its operations?

We found that CMS&H personnel contacted in both Headquarters and the district offices
were conscientious in carrying out requirements of the Accountability Program;
however, we identified several areas where CMS&H could improve and strengthen its
current program.

MSHA’s Accountability Program, as designed, did not provide adequate assurance that
CMS&H’s oversight responsibilities were effectively and consistently performed.
In addition, implementation of the Accountability Program varied across CMS&H.
Finally, CMS&H did not effectively use the results of its accountability reviews to
improve its operations timely and consistently.



U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                         7
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


MSHA established its Accountability Program in 1989 to (1) evaluate the quality of its
enforcement activities, and (2) provide reasonable assurance that its enforcement
personnel consistently comply with policies and procedures. The program, which was
revised most recently in March 2004, is implemented through the policy and guidelines
contained in the Accountability Program Handbook (AH04-III-10, March 2004). Major
revisions included mandated District level internal Peer Reviews, Headquarters
oversight of field activities, and the elimination of internal review procedures dealing
with low-risk issues such as MSHA equipment, recordkeeping, forms and reference
materials. MSHA has two levels of accountability reviews, Headquarters Reviews
(HQR) of District Office operations, and District Peer Reviews (DPR) of Field Office
operations.

HQRs include in-depth reviews of the enforcement activities for a selected mine
operation(s). These reviews identify strengths and weaknesses in the District’s
operations and examine the steps taken to correct significant issues identified during
previous HQRs and DPRs. MSHA conducts a review of each District Office biannually.

DPRs are intended to provide field managers and supervisors with feedback on the
quality and conduct of their enforcement programs and to facilitate the implementation
of timely and effective actions to eliminate the root causes of deficiencies. HQ
personnel use the results of the DPRs to assess enforcement consistency nationwide,
identify systemic weaknesses and trends, and detect potential best practices within
MSHA’s inspection programs. Each District must conduct DPRs on a selection of its
field offices annually.

Additional background information is contained in Appendix A.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our audit scope, methodology, and criteria are detailed in Appendix B.




                                          U.S. Department of Labor—Office of Inspector General
 8
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


A. DESIGN AND PLANNING

Objective 1 - Was MSHA’s Accountability Program designed to provide adequate
              assurance that CMS&H’s oversight responsibilities were effectively
              and consistently performed?


MSHA’s Accountability Program, as designed, did not provide adequate assurance that
CMS&H’s oversight responsibilities were effectively and consistently performed.
Specifically: (1) the selection of which enforcement activities to review during HQRs and
DPRs did not rely primarily on measures of internal performance and were usually
restricted to only a portion of CMS&H’s area of responsibility, and (2) based on the
current structure, the selection of which enforcement activities to review during DPRs
could be influenced to prevent negative results.

In a management letter issued September 29, 2006, the OIG reported some initial
observations about how MSHA’s Accountability Program selected mines to review and
who made those selections. Though our audit was still ongoing at that time, we
reported our concerns because CMS&H had several HQRs scheduled between
September 1, 2006, and December 31, 2006, before we would complete our audit. We
made recommendations for improving the mine selection process based on those initial
observations. To address our recommendation, CMS&H worked with MSHA's
statisticians to derive a method to assure that all entities (underground, surface and
facility) had a possibility of selection and that the selection was not within the control of
any individual (i.e. random). CMS&H piloted this approach during the last quarter of CY
2006. After piloting the approach, MSHA disagreed with our recommendations in its
response dated November 29, 2006, to the management letter. Based on our now
completed audit work, we have redefined our initial concerns as part of a broader issue
and updated our recommendations for improving CMS&H’s Accountability Program.
Assuring that the selection of activities to review (1) primarily focuses internally on
measures of MSHA personnel performance and not externally on operator performance,
(2) has the potential to examine any of CMS&H’s areas of responsibility, and (3) is
protected from improper influence, is critical to the integrity and usefulness of the
program’s results.

Criteria Used to Select Activities Reviewed during HQRs and DPRs Did Not
Primarily Focus on CMS&H Performance and Did Not Adequately Consider All
Activities

The criteria that CMS&H primarily used to select activities to examine in HQRs and
DPRs emphasized measures of mine operator performance and underground coal
mines. As a result, the potential of the accountability reviews to evaluate the quality of
enforcement activities and to provide assurance that CMS&H personnel were
consistently complying with policies and procedures was reduced. Standards on
performing peer reviews state that review entities should be selected in such a way that

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                         9
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


the sample can be expected to be representative of the population; include a
reasonable cross-section of the entities’ practices; and be selected without regard to
size, shape, location, or physical features (see Exhibit A). CMS&H could strengthen the
effectiveness of its accountability reviews by primarily focusing on personnel-based
performance indicators in selecting activities to review and by assuring that all activities
have the possibility of being selected for review.

Activities Selected for Review Were Based on Measures of Mine Operator Performance

CMS&H selected activities for HQR and DPR teams to review through a method that
emphasized external (i.e., mine operator) performance measures rather than internal
(i.e., CMS&H) performance measures. CMS&H officials determined the activities to be
examined in an accountability review by first selecting a specific mine operation within
the district or field office under review. For HQRs, the Accountability Handbook states,
“The review team shall select mine operation(s) to concentrate on during its review of
District enforcement activities.” While the Accountability Handbook does not contain
similar instructions for DPRs, selection of a mine operation is implicit in the description
of the enforcement records to be prepared for review prior to the DPR. Based on the
mine operation(s) selected, the accountability review focused on the recent work
produced by CMS&H enforcement personnel (i.e., inspectors, supervisors, etc.)
assigned to that mine operation.

In selecting a mine operation for review, CMS&H officials identified mines they believed
to be at high risk for safety and health problems. To do this, CMS&H concentrated on
measures that primarily focused on poor mine performance (e.g., accident rate,
frequency of violations, etc.). This approach implied that a poor performing mine
operation indicated potential poor performance by CMS&H personnel, and vice versa.
However, a mine operation’s performance measures do not necessarily indicate a
parallel performance level by CMS&H. For example, “good” mine performance (e.g.,
low number of violations) might indicate poor oversight by the assigned inspector.
Likewise, “poor” mine performance (e.g., high number of violations) could indicate
CMS&H personnel performed their duties diligently.

Selecting activities for review based on measures of a mine operation’s safety and
health “risk” also resulted in the disproportionate, and sometimes exclusive, coverage of
CMS&H activities at underground mines. Our analysis of accountability reviews
conducted in CYs 2005 and 2006 showed that more than three-fourths of these reviews
focused on underground coal mines, which represented only one-third of coal mine
operations during that period. For the same period, officials in four of seven districts we
contacted stated that they chose only underground coal mines as the focus of
accountability reviews, and CMS&H officials stated that they selected only underground
coal mines for their HQRs. After the issuance of our September 2006 management
letter, CMS&H included, in addition to an underground mine, both a surface coal mine
and a facility in HQRs, as a pilot test. CMS&H officials have not indicated whether they
will continue this practice.


                                          U.S. Department of Labor—Office of Inspector General
 10
                                                              Report Number: 05-07-002-06-001
                                                                MSHA’s Office of Coal Mine Safety and Health
                                                              Needs to Strengthen its Accountability Program


                                                      Table # 1

            Comparison of Categories of Mining Operations Versus Their
                        Representation in DPRs and HQRs

                                  Total              DPRs            HQRs
                                 # as of % of           % of           % of
          Type of Operation      8/9/06  Total   #      Total   #       total
        Underground Coal Mine      712   32.3 % 81      75.7 % 9       81.8 %
        Surface Coal Mine          999   45.3 % 14 (1) 13.1 % 1 (2)      9.1 %
                                                   (1)            (2)
        Coal Processing Facility   493   22.4 % 12      11.2 % 1         9.1 %
                                 2,204 100.0 % 107     100.0 % 11     100.0 %
       Notes:   (1) CMS&H District 6 completed 11 of the 26 surface/facility locations examined in DPRs.
                (2) CMS&H included surface/facility locations in HQRs as a pilot test subsequent to our
                    September 2006 management letter.


By limiting or excluding the selection of certain categories of mine operations when
defining the activities to be examined in an accountability review, CMS&H reduced the
likelihood that review results reflected CMS&H’s entire performance.

Since the goal of the Accountability Program is to evaluate the quality of enforcement
activities and to provide assurance that CMS&H personnel are consistently complying
with policies and procedures, the criteria for selecting activities to review should
emphasize measures that reflect the performance of CMS&H personnel. Two of the
seven districts included in our audit scope did consider personnel-based performance
indicators in identifying activities to examine in their accountability reviews. An MSHA
staff member stated that the following performance indicators were used in the
employee’s district:

      a low number or percentage of citations or closure orders issued by an inspector
       (compared to other enforcement personnel in the district or for that mine)
      a high number of or significant change (increase or decrease) in the number of
       challenged (conferenced) citations
      incomplete or late mandatory inspections
      a high percentage of “off site” or “in office” time charges.

Standardized selection criteria, used by all CMS&H districts, that emphasize measures
of CMS&H performance would increase the assurance provided by accountability
reviews that its personnel were adequately and consistently carrying out their
responsibilities.

While targeting accountability reviews using a “risk based approach” might be viewed as
a more effective use of limited resources, the proper risks must be measured. Activities
to be examined in CMS&H’s accountability reviews should be targeted based on
measures of its own performance rather than measures of a mine operation’s

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                                            11
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


performance. Reviews should also be targeted in a manner that does not exclude any
portion of CMS&H’s overall activity.

Recommendation

The OIG recommends that the Assistant Secretary for MSHA:

     1. Develop a process and criteria for the selection of activities to be examined
        during accountability reviews that
           a. emphasizes measures and indicators of CMS&H performance and
           b. provides the possibility that any activity (related to any mine operation)
               could be selected.

Agency Response

For recommendation 1, MSHA agreed its Accountability Program must primarily
emphasize MSHA's own performance. MSHA plans to strengthen the effectiveness of
its accountability reviews by focusing on key internal performance indicators and the
root causes of deficiencies. Further, it will provide for the possibility that activities
related to any mine operation or enforcement activity may be selected for review. As
MSHA revises its Accountability Program and Handbook, criteria for internal indicators
of performance will be established. However, the risk associated with a particularly
unsafe mine and MSHA’s oversight of that mine are related, and therefore MSHA will
continue to examine mine operator characteristics together with indicators of internal
performance.

OIG Conclusion

This recommendation is resolved based on MSHA’s proposed actions and corrective
action milestone date1. The recommendation will be closed after MSHA provides
documentation that the actions have been completed.

Selection of Enforcement Activities to Review During a DPR Could be Structured
to Prevent Negative Results

For DPRs, an inherent conflict of interest existed for the District Manager in choosing
the work to be reviewed. This conflict created a risk that the District Manager could
improperly affect the selection to influence the review results. While our audit did not
identify any instances of improper influence by a District Manager, MSHA should define
the process to eliminate conflicts of interest (actual or perceived) or establish controls to
lessen the risk associated with such conflicts.



1
  In a subsequent communication dated July 27, 2007, MSHA stated it has developed a corrective action
plan based on the Sago, Aracoma and Darby internal reviews. In that plan, MSHA has committed to
revising its Accountability Program Handbook by January 1, 2008.
                                             U.S. Department of Labor—Office of Inspector General
    12
                                                                 Report Number: 05-07-002-06-001
                                                           MSHA’s Office of Coal Mine Safety and Health
                                                         Needs to Strengthen its Accountability Program

As discussed above, a DPR was based on the selection of an operation within the
district to be reviewed. After the operation was selected, the review team examined the
enforcement activity related to that operation. The Accountability Handbook does not
state who should select the operation(s) for review. However, in all seven districts
examined, the District Manager had final approval over selections. The District
Manager was also the individual ultimately responsible for the work under review. The
results of the DPR, whether positive or negative, were a reflection of the District
Manager’s performance. This created a conflict of interest and an associated risk that
the District Manager could select an operation that was more likely to provide positive
results or avoid negative results.

To increase the reliability of the Accountability Program, MSHA should reduce the risk
associated with the inherent conflict of interest through implementation of a
compensating control,2 or eliminate the conflict of interest altogether. MSHA could
reduce the level of risk by requiring multiple individuals to be involved in setting or
concurring with the review design. The conflict of interest could be eliminated by
placing the authority and responsibility for selecting the activities to be reviewed in the
DPR with an individual outside the district being reviewed (e.g., CMS&H HQ), or
through an objective, systematic method, such as a centralized sample selection by
CMS&H Headquarters. This latter option provides an added benefit in that the selection
process would be completed in a uniform manner for all DPRs.

Recommendation

In the September 29, 2006, management letter, we recommended that no single
individual have the ability to select the operation(s) used to define the DPR scope.
Based on our additional work, we have modified that recommendation.

We recommend that the Assistant Secretary for MSHA:

    2.      Prohibit District Managers, or anyone in their subordinate chain of command,
            from selecting the activities to be reviewed in DPRs.

Agency Response

For recommendation 2, MSHA stated it agreed with the intent of our recommendation.
MSHA suggested that prohibiting District Managers or their subordinates from having
any input into DPR activities would be ill advised because of their wealth of experience
regarding enforcement issues. However, MSHA stated its Accountability Program can
be revised to ensure that Headquarters select enforcement activities for DPRs and that



2
  A compensating control limits the severity of a deficiency and prevents it from rising to the level of a
significant deficiency or material weakness. Although compensating controls mitigate the effects of a
deficiency, they do not eliminate the deficiency.

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                                         13
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program

input from District management could serve to complement a standardized process of
DPR activity selection independent of District Manager or subordinate approval.

OIG Conclusion

We consider recommendation 2 unresolved pending receipt and evaluation of MSHA’s
specific corrective action plan and completion milestone that ensures that the
Accountability Program and Handbook are revised to establish a standardized process
of DPR activity selection independent of District Manager or subordinate input or
approval.




                                          U.S. Department of Labor—Office of Inspector General
 14
                                                              Report Number: 05-07-002-06-001
                                                         MSHA’s Office of Coal Mine Safety and Health
                                                       Needs to Strengthen its Accountability Program


B. IMPLEMENTATION

Objective 2 - Was the Accountability Program adequately and consistently
              implemented throughout CMS&H?


Implementation of the Accountability Program varied across CMS&H. Accountability
reviews did not always: (1) include mine visits during DPRs, (2) assure the
independence of DPR review teams, (3) include a consistent type or depth of analyses
during DPRs, or (4) include interviews3 of appropriate individuals during DPRs and
HQRs. As a result, CMS&H officials lacked assurance that the Accountability Program
was adequately and consistently implemented nationwide. These deficiencies occurred
for several reasons: a) the Accountability Program Handbook did not provide sufficient
guidance to ensure consistent interpretation and implementation across districts; and
b) there was no regular communication among District Peer Review Coordinators.

The OIG reported issues (1) and (4) in a September 29, 2006, management letter and
made corresponding recommendations to improve these areas. MSHA officials agreed
with our recommendation for issue (1) and will require review teams to conduct mine
visits on all accountability reviews. They partially agreed with our recommendation for
issue (4) and will require review teams to conduct interviews of management level
personnel during all accountability reviews. However, this corrective action does not
fully address our recommendation because it limits the group of potential interviewees
to only “management” personnel. We continue to recommend that review teams
consider interviewing anyone with appropriate knowledge of the operations under
review. In addition, our audit work resulted in issues (2) and (3), which are reported
below for the first time, with corresponding recommendations.

Requiring mine visits and interviews be conducted during DPRs and HQRs, improving
the independence of review team members, and assuring a consistent type and depth
of analyses during reviews will promote uniformity and improve the overall effectiveness
of CMS&H’s Accountability Program.

District Peer Reviews Did Not Always Include Mine Visits

As reported in the OIG’s management letter, CMS&H review teams did not routinely
conduct mine visits during DPRs (see Exhibit B). This occurred because the
Accountability Program Handbook did not require such visits as part of the DPR
process. A review solely based on records increased the risk that errors (unintentional)
or misrepresentations (intentional) in the documentation went undetected. Standards
for performing peer reviews state that the review team should visit the selected entities
under review (see Exhibit A).

3
  For purposes of this report, we define interviews as communication initiated with appropriate individuals
involved in or knowledgeable of district or field office activities.

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                                      15
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


The Accountability Handbook states that DPR teams “may decide to conduct a mine
visit(s)” and that HQR teams “may include a visit to the selected operation(s) by one or
more review team members.” The HQRs conducted during our audit period did include
a visit by review team members to the mine(s) selected for review. However, only two
Districts conducted mine visits for DPRs prior to the issuance of our September 2006
management letter. As stated in the Accountability Handbook, a mine visit allows the
review team to “compare the actual conditions and practices at the operation with the
results documented during the previous inspection activities under review.” The
collection of this type of corroborating information provides a means of detecting
erroneous or fraudulent inspection documentation. Without a mine visit, review teams
are less likely to discover such performance problems. Requiring that review teams
visit a mine selected for review would strengthen CMS&H’s Accountability Program.

In the September 29, 2006, management letter, the OIG recommended that the
Assistant Secretary for MSHA:

         Require that one or more review team members observe portions of the mine
         operation(s) chosen for review.

In a November 29, 2006, response, MSHA’s Assistant Secretary agreed to require mine
visits for 1) all HQRs in accordance with the current practice; and 2) all DPRs to
determine if conditions reflect the level of enforcement. The response stated that
CMS&H would incorporate this requirement in a Policy Memo.4

District Peer Reviews Lacked Controls to Assure Independence

The DPR teams lacked sufficient independence. Specifically, we found that the
structure of DPR review teams allowed the possibility that team members could review
their own work, and that DPR team members could be improperly influenced because
they were under the direct supervision of the District Manager. Lack of independence
for the review teams reduces the credibility of the review results.

Limited resources, especially in smaller CMS&H districts, created the possibility that
DPR team members could review their own work. Standards for performing peer
reviews state that it is desirable to assign individuals who were not otherwise involved in
the performance of the program or tasks they are to review (see Exhibit A). However,
some Field Office Supervisors, due to a shortage of inspectors, were conducting mine
inspections in addition to performing their supervisory responsibilities. If a mine
inspected by a Field Office Supervisor was selected for a DPR, that supervisor could


4
 According to CMS&H officials, the root cause analyses and corrective actions arising from MSHA’s
Internal Reviews of the Sago, Aracoma and Darby mine accidents delayed issuance of the planned Policy
Memo and may ultimately result in a different proposed corrective action or a different method of
implementing the corrective action. As a result, the OIG will re-evaluate the status of this
recommendation based on the agency’s response to this audit report.

                                             U.S. Department of Labor—Office of Inspector General
    16
                                                                 Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


potentially review his or her own work. In those instances, independence would be
violated and the integrity of the review results would be compromised.

MSHA’s Accountability Program Handbook was written to reduce this risk by requiring
DPR review teams to consist of at least three members. Therefore, if a conflict arose
between one team member and the work being reviewed, one of the other team
members could review that portion of work. Currently, the Accountability Handbook
only states that DPRs “will be conducted by supervisory teams within each District” and
that “team members shall consist of the coordinator and at least two supervisors.” The
Accountability Handbook addresses the need for independence for HQRs by stating,
“Review team members shall be from outside the District being reviewed”. However, no
similar requirement was stated for DPRs. To clarify the independence requirement, the
Accountability Handbook should specifically state that no accountability review team
members can review work they have performed or supervised.

In addition, DPR results could be improperly influenced because the DPR team
members were under the supervision of the District Manager, the individual who is
ultimately responsible for all work performed in the district. This situation lacks
appropriate independence, since the District Manager had the ability to exercise undue
influence (e.g., performance evaluations, disciplinary actions, work assignments) over
review team members. This influence, whether actual or perceived, could inhibit team
members from reporting operational deficiencies they identify.

Overall resource and logistic (time, travel, etc.) limitations could prohibit staffing DPR
teams entirely from outside the district. Alternatively, the independence of DPR teams
could be improved by including, at a minimum, one team member from outside the
District. As an added benefit, including an outside team member would bring an
impartial opinion to the review by someone not influenced by a familiarity with normal
operating procedures within that district. This cross-staffing of DPRs would also
enhance the ability to share best practices across districts. One District Manager has
already implemented this approach on DPRs in his district.

Recommendations

The OIG recommends that the Assistant Secretary for MSHA:

   3.     Ensure that accountability review team members cannot independently
          review work they have performed or supervised.

   4.     Require that DPR teams include at least one appropriate individual from
          outside the District conducting the review.




U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                         17
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


Agency Response

For recommendation 3, MSHA stated its Accountability Program will be revised and
enhanced to ensure that accountability review team members cannot independently
review work they have performed or supervised.

For recommendation 4, MSHA stated, if resources and time permitted, it would require
DPR teams to include at least one appropriate individual from outside the District
conducting a review.

OIG Conclusion

Recommendation 3 is resolved based on MSHA’s proposed actions and separate
communication of a corrective action milestone date of January 1, 2008. The
recommendation will be closed after MSHA provides documentation that the actions
have been completed. We consider recommendation 4 unresolved. We are not
convinced that a standard of “resources and time permitting” is sufficient to address the
recommendation. We maintain that MSHA should always require that DPR teams
include at least one appropriate individual from outside the District conducting a review.

District Peer Reviews Lacked Consistent Analyses

CMS&H’s review teams lacked consistency in the analyses they performed during
accountability reviews. Specifically, the procedures completed by review teams varied
in the types and documentation reviewed, and the types of analyses performed.
Insufficient detailed guidance in the Accountability Program Handbook and lack of
routine communication among District Peer Review Coordinators contributed to this lack
of consistency. As a result, CMS&H lacked assurance that adequate reviews were
performed on a consistent basis.

The documents and records reviewed by DPR teams varied. The Accountability
Program Handbook identifies several documents, records, and other information for
potential use during accountability reviews. For example, the handbook states the
review coordinator should develop a “review package” that contains items such as
inspection reports; mine maps; inspection, travel, and report time by event, person and
activity codes; Safety and Health complaints; and supervisory reviews and visits. In
addition, the review team is to examine the mine file to assure that complete inspections
were performed. However, according to district personnel, these documents and
records were not always examined by review teams during DPRs.

The amount of information examined during accountability reviews also varied. This
occurred because the Accountability Program Handbook does not clearly specify a
minimal time period or amount of data to be reviewed for DPRs or HQRs. The
Accountability Program Handbook requires the review coordinator to collect some
information for specific timeframes. For example, it states that the “review package”
provided to the DPR or HQR team for the inspection(s) should include statistical data,

                                          U.S. Department of Labor—Office of Inspector General
 18
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program

and documentation of supervisory reviews and visits during the previous 12 – 24
months, as well as a 12-month history of Safety and Health Complaints. The
Handbook, however, does not state how much of this information the team should
review. As a result, some DPR and HQR teams reviewed as little as 3 months of
activity, while others reviewed up to a 1-year timeframe.

District officials explained that the size of the mine being reviewed affected the quantity
of available documentation. Three month’s activity for a large mine could generate as
much documentation for review as a year’s activity at a smaller mine. The quantity of
documentation reviewed was generally determined by the time allotted for completion of
the DPRs and HQRs. In our opinion, reviewing too short a timeframe could result in
incomplete or incorrect review conclusions, and likewise, reviewing too long a timeframe
could result in an ineffective use of resources. MSHA should determine and require an
appropriate minimum review period for all DPRs and HQRs. In setting this minimum
timeframe, MSHA should consider reviewing inspection activity during different
operating seasons to address seasonal hazards (e.g., winter alert, summer roof issues)
and, if possible, during different inspector assignments at the selected mine operation.

The types of analyses conducted during DPRs also varied significantly. The
Accountability Program Handbook did not require specific analyses. As a result, each
district determined the number and type of analyses it would perform in completing a
DPR. For example, not all districts compared time and attendance records and
inspector notes against annotated mine maps. District officials stated that because of
the absence of specific guidance in this area, they were uncertain whether they were
conducting DPRs in an appropriate way. Developing and requiring the completion of
specific, minimum review procedures would increase the consistency of review results.

An additional cause of inconsistency in conducting DPRs was the lack of
communication among District Peer Review Coordinators (DPRCs). Neither the
Accountability Program Handbook nor CMS&H officials established a method for
DPRCs to exchange information routinely among themselves. As a result, DPRCs
developed individual and varying ways of interpreting and implementing the
Accountability Program Handbook. Developing a periodic exchange of issues and
ideas among DPRCs would improve the quality and consistency of DPRs nationwide.

Overall, CMS&H could improve the consistent implementation of its accountability
reviews through more specific guidance, and the sharing of information and experiences
among the districts.

Recommendations

The OIG recommends that the Assistant Secretary for MSHA:

   5.     Provide guidance and instruction that is more detailed on specific procedures
          and tasks required to complete an effective DPR.


U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                         19
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


   6.     Establish a minimum scope for DPRs and HQRs that includes at least a
          review of two non-consecutive quarters of enforcement documentation from
          the preceding 12 months.

   7.     Require that the timeframe for completion of DPRs and HQRs be planned in a
          way to ensure an accurate and thorough review.

   8.     Require that DPRCs regularly communicate to discuss common issues,
          resolutions and best practices to ensure consistency and compliance
          nationwide.

Agency Response

For recommendation 5, MSHA stated its Accountability Program Handbook will be
revised to provide specific guidance and instruction on procedures and tasks required to
conduct timely, effective, and thorough DPRs and HQRs - with a strong focus on
internal performance indicators and root cause analysis.

For recommendation 6, MSHA stated its Accountability Program Handbook will be
revised to include establishing a minimum scope for DPRs and HQRs, and minimum
review timeframes (i.e., at least two non-consecutive quarters of enforcement
documentation).

Recommendations 7 and 8 were not specifically addressed in MSHA’s response.

OIG Conclusion

Recommendations 5 and 6 are resolved based on MSHA’s proposed actions and
separate communication of a corrective action milestone date of January 1, 2008. The
recommendations will be closed after MSHA provides documentation that the actions
have been completed. Recommendations 7 and 8 are unresolved. MSHA stated in its
response to recommendation 7 that it will establish a minimum scope for DPRs and
HQRs, and minimum review timeframes. However, it did not directly address the issue
of adequate time being allotted or the addition of more team members to adequately
complete the reviews. MSHA stated in its response to recommendation 14 that there is
value in sharing accountability review findings across the Districts, and will require
regular dissemination of common issues, resolutions, and best practices. However, it
did not directly address regular communication among DPRCs as proposed in
recommendation 8.

Interviews Were Not Required as an Integral Part of DPRs and HQRs

As reported in the OIG’s September 29, 2006, management letter, CMS&H did not
require interviews during DPRs and HQRs. This occurred because the Accountability
Program Handbook did not require review team members to conduct any interviews.
Omitting interviews of individuals involved in or knowledgeable of district or field office

                                          U.S. Department of Labor—Office of Inspector General
 20
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program

activities (e.g., MSHA personnel, mine operators, union officials) limited the information
used to assess those offices’ operations. This increased the risk that operational
deficiencies went undetected. Interviews of appropriate individuals during DPRs and
HQRs would provide an opportunity to corroborate and expand on information about
operational issues identified through other review sources.

In the September 29, 2006, management letter, the OIG recommended that the
Assistant Secretary for MSHA:

          Require review team members interview appropriate individuals during District
          Peer Reviews and HQ Reviews of Districts.

In his November 29, 2006, response, MSHA’s Assistant Secretary agreed to require
interviews of district management personnel in all HQ and District Peer Reviews, and
stated CMS&H would incorporate this requirement in a Policy Memo.5 Based on
MSHA’s response, the management letter recommendation is unresolved. Interviews
conducted as part of DPRs and HQRs should not be limited to district management
personnel alone. Omitting interviews of individuals involved in or knowledgeable of
district or field office activities (e.g., mine operators, union officials, miners, MSHA staff,
etc.) limits the scope of information used to assess those offices’ operations. Standards
for performing peer reviews state that the review team should interview personnel at
various levels (see Exhibit A). This recommendation will remain unresolved until
CMS&H provides evidence that DPR and HQR related interviews will be conducted
routinely with all appropriate individuals.




5
    See footnote 4 on p. 16.

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                          21
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


C. REPORTING AND ANALYSIS

Objective 3 - Was CMS&H effectively using the results of its accountability
              reviews to report, monitor and improve its operations?



CMS&H did not effectively use the results of its accountability reviews to improve its
operations timely and consistently. Specifically, the program did not: (1) require a
standard format for DPR reports; (2) assure the timely development, implementation,
and monitoring of corrective actions; (3) have a centralized system to record and track
deficiencies, corrective actions and best practices; and (4) communicate identified
common deficiencies, corrective actions, and best practices. As a result, CMS&H could
not assure the timely and effective correction of individual deficiencies, identification of
systemic problems, and dissemination of best practices across the organization.

The OIG reported issues (1) and (3) in a September 29, 2006, management letter and
made corresponding recommendations to improve these areas. MSHA officials agreed
with our recommendation for issue (1) and will require districts to use a standard format
for DPR reports and corrective action plans. They also agreed with our
recommendation for issue (3) and will develop a centralized system to record and track
deficiencies, corrective actions and best practices. In addition, our audit work resulted
in issues (2) and (4), which are reported for the first time with corresponding
recommendations.

Improving the reporting and tracking of DPR and HQR results, assuring the timely and
effective correction of operational deficiencies, and sharing best practices across the
organization will strengthen the benefits from CMS&H’s Accountability Program.

CMS&H Did Not Require a Standard Format for District Peer Review Reports

As reported in the OIG’s September 29, 2006, management letter, the Summary
Accountability Reports that District Managers submitted to CMS&H officials from
January 1, 2005, through June 30, 2006, presented peer review information in a variety
of formats and levels of detail. This occurred because MSHA’s Accountability Program
Handbook did not require a standard format for DPR reports. As a result, it was difficult
for CMS&H officials to assure that all review work was performed, results were reported,
and corrective actions were identified. It also made it difficult to identify systemic
problems by comparing information from all districts.

While MSHA indicated in its response to the management letter that a template for DPR
reports was available but optional, we saw no evidence of its use. The methods used
by districts to report their DPR findings and corrective actions varied significantly. For
example, in three district summary reports we reviewed, deficiencies identified and the
recommended corrective action for each were broken down by individual field office,


                                          U.S. Department of Labor—Office of Inspector General
 22
                                                              Report Number: 05-07-002-06-001
                                                   MSHA’s Office of Coal Mine Safety and Health
                                                 Needs to Strengthen its Accountability Program


while two other districts provided summaries of the same information but without a
breakdown by field office.

In addition, only three of five district summaries included specific information on the
methods used by the review teams to measure the offices’ effectiveness and monitoring
activities. The other two districts’ summary reports had no information on these factors.
Finally, one of the five district summary reports we reviewed did not provide information
on the root causes of deficiencies the review teams identified.

In the September 29, 2006, management letter, the OIG recommended that the
Assistant Secretary for MSHA:

              Require the use of a standard report format, in both presentation and content,
              for District Peer Review reports.

In its November 29, 2006, response, MSHA’s Assistant Secretary agreed to 1) require
districts to use a standard format for DPR reports and corrective action plans, and
2) provide guidance on the level of detail required in the summary reports to facilitate
HQ oversight, review and analysis. The response stated CMS&H would incorporate this
requirement in a Policy Memo. 6

The Development, Implementation, and Monitoring of Corrective Actions Needs
Improvement

MSHA’s Accountability Program did not consistently develop, implement and monitor
corrective actions related to identified deficiencies in a timely manner. Specifically:
(1) HQR teams did not routinely participate in the development of potential corrective
actions with district management; (2) timeframes were not required for development of
corrective action plans resulting from DPRs, and completion milestones were not
required for the implementation of corrective actions resulting from either DPRs or
HQRs; and (3) minimal monitoring was conducted to confirm the effectiveness of
corrective actions implemented for DPRs and HQRs.

HQR Review Teams Were Not Required to Provide Input Into the Development of
Appropriate Corrective Actions

HQR teams did not routinely discuss potential corrective actions with district
management. This occurred because the Accountability Program Handbook does not
require HQR teams that identify issues and/or deficiencies during a review to participate
in the development of appropriate corrective actions. Responsibility for the
development and implementation of corrective action plans resulting from both DPRs
and HQRs rests with the District Manager.

6
    See footnote 4 on p. 16.

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                          23
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


The Accountability Program Handbook requires the HQR team, which consisted of
headquarters and field personnel from other districts with working knowledge of
enforcement activities and the Peer Review process, to summarize their review findings
in a draft report within 10 days after the close-out conference. The Handbook, however,
does not describe a further role for the review team after their site visit concluded. As
prescribed by the Handbook, the District Manager develops proposed corrective actions
to address the findings after the HQR team leaves the district. CMS&H’s Accountability
National Coordinator then reviews the District Manager’s proposed corrective plan.
According to the Handbook, in cases where an agreement could not be reached on the
appropriate corrective action to reconcile an issue, the Deputy Administrator for CMS&H
resolves the conflict.

While involvement of the review team in the development of corrective actions to
resolve issues effectively was not specified in the Handbook, we found that in practice,
input from review team members was sought. The National Coordinator did provide the
District Manager’s proposed corrective plan to the appropriate HQR team for review and
comment. The requirement to have HQR teams involved in the corrective actions to
resolve identified issues should be documented in the Handbook.

Further, District Managers should be encouraged to solicit input from HQR team
members regarding appropriate corrective actions. By doing so, CMS&H could
minimize delays in the development and implementation of corrective actions, thus
reducing the risk of prolonging unsafe practices and procedures.

Timeframes Are Not Required for Development of Corrective Action Plans for DPRs and
Implementation and Completion Dates Are Not Routinely Included in Plans for Both
DPRs and HQRs

For DPRs, MSHA’s Accountability Program Handbook does not require District
Managers to develop a corrective action plan in a specified time period for issues and/or
deficiencies identified. This was in contrast to the requirement for HQRs that District
Managers develop a corrective action plan within 15 working days from receipt of the
final report. Lack of a specific timeframe for District Managers to develop corrective
action plans for DPRs could result in the possibility that inadequate practices and
procedures might continue unchecked.

In addition, while the Accountability Handbook does require that implementation and
completion dates for both DPRs and HQRs be incorporated into corrective action plans,
we saw little evidence of this being followed. Without the establishment of dates for
corrective actions, there is no way to monitor actions effectively.

From DPR and HQR reports reviewed for the period January 1, 2005, through
December 31, 2006, implementation and completion dates were not consistently
provided for all corrective actions. Only three of five districts included implementation
and/or completion dates in their DPR and HQR corrective action plans.


                                          U.S. Department of Labor—Office of Inspector General
 24
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


Timely development of corrective action plans and completion of those actions
appeared driven by the severity of the issue identified. CMS&H district and field
personnel stated that corrective actions on deficiencies deemed serious were
implemented immediately, while those determined to be less significant were corrected
when time permitted.

Requiring a specific timeframe for the development of corrective action plans resulting
from DPRs is essential in ensuring that districts consistently develop corrective action
plans timely to address known deficiencies. Further, implementation and completion
dates should be established for all corrective actions from both DPRs and HQRs,
regardless of severity. Delay in completing corrective actions for any deficiencies
identified during DPRs or HQRs could increase the risk of continuing unsafe practices
and procedures in conducting enforcement activities. Specifying dates will permit
effective tracking of actions, as well as enhance management oversight, consistency,
and uniformity.

Lack of Monitoring and Evaluation of Corrective Actions for DPRs and HQRs

Minimal or no follow-up was conducted to verify the completion and effectiveness of
corrective actions for both DPRs and HQRs. As a result, district personnel were not
always sure if corrective actions either were completed or achieved their desired effect
for the issues found during both DPRs and HQRs. Standards for performing peer
reviews state that timely completion of corrective actions should be tracked by
responsible personnel, and procedures should be established for resolution and
followup of recommended corrective actions (see Exhibit A).

Responsibility for monitoring the completion and effectiveness of corrective actions
resulting from both DPRs and HQRs rests with the District Manager. The MSHA
Accountability Program Handbook states that the District Manager should evaluate the
effectiveness of action plans for both DPRs and HQRs during future DPRs and monitor
the action plans on an ongoing basis. We found a lack of consistency in CMS&H
districts carrying out this requirement, thus limiting assurance that followup was
conducted on both the implementation and effectiveness of the corrective actions.

For example, districts frequently cited training as a corrective action for both DPR and
HQR identified issues. However, there was little or no followup to ensure not only that
the training was given but also the effectiveness of the training. Of the seven districts
we contacted, all districts consistently used training in addition to other methods, such
as increased supervisory oversight, to address deficiencies found during DPRs and
HQRs. Corrective actions such as training or supervisory oversight could fail to address
deficiencies adequately if there is no followup to ensure that the issues found were
effectively addressed.

CMS&H should ensure that districts are monitoring corrective actions from DPRs and
HQRs on a continuous basis as is currently required; however, evaluation of the

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                         25
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program

effectiveness of such actions should not be limited to only future DPRs. CMS&H could
strengthen the benefits from the Accountability Program by requiring ongoing evaluation
of completed corrective actions by the districts.

Recommendations

The OIG recommends that the Assistant Secretary for MSHA:

   9.     Require HQR teams to be involved in the development of appropriate
          corrective actions.

   10.    Require a timeframe be established for the development of all corrective
          action plans resulting from DPRs.

   11.    Incorporate dates into corrective action plans for the implementation and
          completion of actions resulting from DPRs and HQRs.

   12.    Require a timely evaluation by District Managers to ensure that completed
          corrective actions are adequately addressing the deficiencies identified during
          DPRs and HQRs.

Agency Response

For recommendation 9, MSHA stated that HQR accountability teams will have the
responsibility of conducting root-cause analysis to identify the deficiencies and
subsequently submitting final corrective actions to District management. The
development of the corrective actions may, in some cases, be a collaborative effort
between the HQR accountability team and District management as they leverage their
respective expertise to derive the most timely and effective remedies. MSHA stated it
will revise their Accountability Program and Handbook to further define and formalize
this process.

For recommendations 10 - 12, MSHA stated it strongly concurs with these
recommendations. MSHA stated that timeframes for the development of corrective
action plans are crucial to minimize the impact of practices which may negatively
influence MSHA’s enforcement program (and potentially the safety of miners). MSHA
also stated that establishing dates for the implementation and completion of corrective
action plans is equally important. In addition, MSHA stated that monitoring and
evaluating the effectiveness of corrective action plans is vital at both the District and
Headquarters level. Finally, MSHA stated it will revise the Accountability Program and
Handbook to define and formalize these processes.

OIG Conclusion

Recommendations 9 through 12 are resolved based on MSHA’s proposed actions and
separate communication of a corrective action milestone date of January 1, 2008. The


                                          U.S. Department of Labor—Office of Inspector General
 26
                                                              Report Number: 05-07-002-06-001
                                                         MSHA’s Office of Coal Mine Safety and Health
                                                       Needs to Strengthen its Accountability Program

recommendations will be closed after MSHA provides documentation that the actions
have been completed.

CMS&H Had No Centralized System to Record and Track Deficiencies, Corrective
Actions, and Best Practices Identified during DPRs and HQRs

As reported in the OIG’s September 29, 2006, management letter, CMS&H did not have
a centralized system to record and track deficiencies, corrective actions, and best
practices. Without a method to track the results of accountability reviews, there was an
increased risk that systemic and recurring deficiencies would not be readily identified
and made known to all CMS&H districts; planned corrective actions would lack timely
completion; and best practices would not be captured and shared across the
organization.

According to industry standards on performing peer reviews, timely completion of
corrective actions should be tracked by responsible personnel (see Exhibit A). A
tracking system would facilitate CMS&H officials’ ability to assure the timely completion
of planned corrective actions and enhance their ability to review and analyze systemic
weaknesses and trends.

In the September 29, 2006, management letter, the OIG recommended that the
Assistant Secretary for MSHA:

            Develop a system to record and track the results of District Peer Reviews and
            HQ Reviews of Districts (e.g., identified deficiencies, planned corrective
            actions, potential best practices, etc.).

In a November 29, 2006, response, MSHA’s Assistant Secretary agreed with this
recommendation and stated that a committee was formed to review various systems.
This committee will recommend a proposed course of action to develop a centralized
system that will not only record and track deficiencies but also ensure that corrective
actions are implemented and completed in a timely manner. The response also stated
that before system implementation, HQ personnel would consult with District Managers
and District Peer Review Coordinators as well as IT specialists to ensure that the
tracking system is simple to use and effective in facilitating review and analysis of
systemic weaknesses and trends.

The response stated that CMS&H would implement this tracking system. 7 The district
offices would also benefit from the ability to access the information contained in this
tracking system. This would provide District Managers with another tool to effectively
monitor the status and thus ensure the timely completion of corrective actions.

7
  According to CMS&H officials, the root cause analyses and corrective actions arising from MSHA’s
Internal Reviews of the Sago, Aracoma and Darby mine accidents delayed implementation of the planned
tracking system and may ultimately result in a different proposed corrective action or a different method of
implementing the corrective action. As a result, the OIG will re-evaluate the status of this
recommendation based on the agency’s response to this audit report.
U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                                       27
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program

Recommendation

The OIG recommends that the Assistant Secretary for MSHA:

   13.     Require that District Offices utilize the same tracking system, once it is
           developed and implemented by HQ, to record and track the results of their
           DPRs (e.g., identified deficiencies, planned corrective actions, potential best
           practices, etc.).

Agency Response

MSHA concurred with recommendation 13. MSHA stated it will revise the
Accountability Program and Handbook to define and formalize this process, i.e., require
that District Offices utilize the same tracking system as Headquarters, to record and
track the results of their DPRs.

OIG Conclusion

We consider recommendation 13 unresolved pending receipt and evaluation of MSHA’s
specific corrective action plan and completion milestone date for the implementation of
the tracking system at the District Office and HQ level.

CMS&H Did Not Consistently Communicate Deficiencies, Corrective Actions and
Best Practices Resulting from DPRs and HQRs

CMS&H did not consistently communicate deficiencies, corrective actions, and best
practices identified during DPRs and HQRs, either within or among district offices.
While the Accountability Program Handbook states that the District Manager is
responsible for ensuring that findings from a HQR are reported to district personnel
within 15 working days, it does not have a similar guideline for the dissemination of
report findings from DPRs. In addition, there was no similar requirement for HQ to
share appropriate findings, corrective actions, and best practice information across
districts.

According to field office personnel, not all offices within a district were aware of issues
identified by review teams conducting DPRs in their district. Additionally, we saw no
evidence that best practices identified as part of these reviews were consistently shared
within the districts’ field offices. Within a district, this could hinder the ability to ensure
timely corrective actions and/or enhancements in areas requiring improvement.

Further, among district offices, this inconsistent communication could also prevent
districts from receiving information promptly on identified issues and proposed
corrective actions, which also may exist in their districts. CMS&H should ensure that
identified deficiencies, corrective actions and best practices are communicated timely
within the appropriate district and field offices, and disseminated nationwide, as
appropriate, in order to reduce recurring deficiencies and enhance the quality of
enforcement activities overall.
                                          U.S. Department of Labor—Office of Inspector General
 28
                                                              Report Number: 05-07-002-06-001
                                                     MSHA’s Office of Coal Mine Safety and Health
                                                   Needs to Strengthen its Accountability Program


The following table shows examples of different review teams from different districts
identifying the same or similar issues. Knowledge of these recurring findings, as well as
the proposed techniques to correct them, could reduce recurring deficiencies by making
other districts aware of potential problems before they conduct their own DPR or HQR.

                                            Table # 2

  Summary of Recurring Findings from Selected CMS&H’s District Peer Reviews


                 Finding                        District      District      District       District
                                                   5             6            10             11

Incorrect and/or missing documentation             √             √             √              √

Inconsistencies with time and activity
sheet entries                                      √             √           N/A            N/A


Deficiencies in note taking                        √             √             √              √


Inconsistencies with Uniform Mine File             √             √             √              √


Violations incorrectly cited                       √             √             √              √

 Source:    OIG analysis of data provided by CMS&H. (Please note: The fifth district that we visited,
            District 9, was only to observe a HQR being conducted. No DPR reports were examined.)

CMS&H should ensure that all staff has a clear understanding of the issues identified
during accountability reviews and how and why the corrective action plans and/or best
practices will address those issues. Lack of specific requirements and procedures
hinders the benefits associated with routinely and effectively disseminating this
information. CMS&H can improve its Accountability Program by ensuring that such
information is disseminated timely both within and across all district offices.

Recommendation

The OIG recommends that the Assistant Secretary for MSHA:

   14.     Require that identified issues, deficiencies, corrective actions, and best
           practices be communicated within a district’s field offices and disseminated
           nationwide, as appropriate, in a timely manner.


U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                                   29
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program

Agency Response

For recommendation 14, MSHA stated it concurs with this recommendation. MSHA
stated it will revise the Accountability Program and Handbook to require timely
dissemination of accountability review findings, including common issues, resolutions,
and best practices, within and across the Districts.

OIG Conclusion

Recommendation 14 is resolved based on MSHA’s proposed actions and separate
communication of a corrective action milestone date of January 1, 2008. The
recommendation will be closed after MSHA provides documentation that the actions
have been completed.




Elliot P. Lewis
February 28, 2007




                                          U.S. Department of Labor—Office of Inspector General
 30
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




Exhibits




U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                         31
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                                          U.S. Department of Labor—Office of Inspector General
 32
                                                              Report Number: 05-07-002-06-001
                                                    MSHA’s Office of Coal Mine Safety and Health
                                                  Needs to Strengthen its Accountability Program



                                          EXHIBIT A

               Attributes of Good Peer Review Programs
Please Note: The following list of attributes were compiled by the OIG from the
sources identified in the footnotes.


Selection

     Review entities should be chosen without regard to size, shape, location, or other
      physical features. 8
     Review entities selected should include a reasonable cross-section of the
      entities’ practices.9
     Sample items should be selected in such a way that the sample can be expected
      to be representative of the population.10

Site Visits

     The review team should visit the selected entities under review.11

Independence

     Assign individuals to the peer reviews who are not otherwise involved in the
      performance of the entity under review.12

Documentation

     Documentation should contain sufficient information to enable an experienced
      reviewer, who has had no previous connection with the review, to understand the
      conclusions.13

Interviews

     The review team should interview personnel at various levels.14


8
  Association of Independent Certified Public Accountants (AICPA) All Business Letter
9
  AICPA Peer Review Manual (PRM) Section 18200-Guide for Performing Inspections
10
   Statements of Accounting Standards (SAS) AU 350.05
11
   AICPA Standards for Performing and Reporting on Peer Reviews Section 57
12
   AICPA Peer Review Manual (PRM) Section 18200-Guide for Performing Inspections
13
   Government Accountability Office (GAO) 03-673G (4.22)
14
   AICPA Standards for Performing and Reporting on Peer Reviews Section 57 and Securities and
   Exchange Commission Practice Section (SECPS) AICPA Section 2000 and GAO 03-673G (3.54a)

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                             33
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


Computerized Systems

       Documentation should include evidential matter produced outside the
        computerized information system for direct testing of data within the system.15


Reporting and Follow-up Actions

       A written report should be prepared to communicate the results of the peer
        review.16
       Timely completion of corrective actions should be tracked by responsible
        personnel.17
       Procedures should be established for resolution and follow-up of recommended
        corrective actions.18




15
   GAO 03-673G (4.24c)
16
   GAO 03-673G (3.54d)
17
   AICPA All Business Letter
18
   Office of the Inspector General (OIG) President’s Council on Integrity Efficiency (PCIE)

                                                U.S. Department of Labor—Office of Inspector General
     34
                                                                    Report Number: 05-07-002-06-001
                                                                                   MSHA’s Office of Coal Mine Safety and Health
                                                                                 Needs to Strengthen its Accountability Program



                                                              EXHIBIT B

                        District Peer Reviews Conducted in CYs 2005 and 2006

     12
     10
      8
                                                                                                   CY 2005      CY 2006
      6
      4
      2
      0
              D1   D2     D3     D4      D5       D6     D7      D8   D9   D10    D11


The table below shows the District Peer Reviews (DPRs) conducted with mine visits in CYs 2005 & 2006.

                   DPRs w/ mine visits        DPRs w/ mine visits
District #             CY 2005                    CY 2006
District 1                 0                          0
District 2                 0                          0
District 3                 0                          1
District 4                 0                          0
District 5                 0                          1
District 6                10                         12
District 7                 0                          0
District 8                 0                          0
District 9                 0                          0
District 10                1                          2
District 11                0                          1

U.S. Department of Labor—Office of Inspector General
Report Number: 05-07-002-06-001                                                      35
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




Appendices




U.S. Department of Labor—Office of Inspector General                                       37
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




38                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


                                                                               APPENDIX A
Background

Mine Safety and Health Administration (MSHA)

The Federal Mine Safety and Health Act of 1977 (Mine Act) established the Mine Safety
and Health Administration (MSHA) in 1978. The Mine Act transferred the Federal
enforcement program from the Department of the Interior to the Department of Labor
(DOL) and placed coal mines and metal/nonmetal mines under a single law.

As a result of the increase in coal mine fatalities in early CY 2006, Congress enacted
the Mine Improvement and New Emergency Response (MINER) Act on June 15, 2006.
The MINER Act includes provisions for updated emergency response plans, increased
training and availability of rescue teams, improved communication technology, and
training programs for miners and mine inspectors.

MSHA is responsible for administering the provisions of both the Mine Act and the
MINER Act. MSHA’s primary goals are to (1) eliminate fatal accidents; (2) reduce the
frequency and severity of nonfatal accidents; (3) minimize health hazards; and
(4) promote improved safety and health conditions in the nation's mines. MSHA’s
organizational structure divides oversight responsibilities for all mines between the
Office of Coal Mine Safety and Health (CMS&H) and the Office of Metal/Nonmetal Mine
Safety and Health (MNMS&H). MSHA’s budgeted operating costs totaled $278 million
for CY 2006 and $279 million for CY 2005. MSHA’s proposed budget for FY 2007 is
$288 million.

CMS&H is responsible for enforcing the Mine Act and MINER Act at coal mines. It
administers 11 districts and 44 associated field offices with staff totaling approximately
1,000. Eight of its 11 districts are located in the Eastern United States, near coal seams
located in or near the Appalachian Mountains.

MSHA Accountability Program

MSHA established its Accountability Program in 1989 to (1) evaluate the quality of its
enforcement activities and (2) provide reasonable assurance that its enforcement
personnel consistently comply with policies and procedures. MSHA revised the
program most recently in March 2004 based on recommendations from MSHA’s Internal
Review of the Jim Walters Resources Company, Mine 5 accident. Major revisions
included mandated District level internal Peer Reviews, Headquarters oversight of field
activities, and the elimination of internal review procedures dealing with low-risk issues
such as MSHA equipment, recordkeeping, forms and reference materials. The
Accountability Program is implemented through the policy and guidelines contained in
the Accountability Program Handbook (AH04-III-10, March 2004). The Handbook
describes two levels of accountability reviews, Headquarters Reviews (HQR) of District
Office operations and District Peer Reviews (DPR) of Field Office operations.
U.S. Department of Labor—Office of Inspector General                                       39
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


Headquarters Reviews of District Offices

HQRs include in-depth reviews of the enforcement activities for a selected mine
operation(s). These reviews identify strengths and weaknesses in the District’s
operations and examine the steps taken to correct significant issues identified during
previous HQRs and DPRs. MSHA conducts a review of each District Office biannually.

The Administrators for CMS&H and MNMS&H each assign a National Coordinator to
oversee and coordinate HQRs within their organization. The National Coordinator
develops review schedules and designates review team members. Review team
members consist of Headquarters and field personnel from outside the District under
review with a working knowledge of enforcement activities and Peer Review processes.

Before the on-site review, team members review both quantitative and qualitative data
(e.g., accident and fatality incidence rates, citations, results of prior peer reviews,
Management Information Systems reports, etc.), in support of the District for at least the
prior year. During a 3-5 day on-site visit, the review team may interview District and
field office employees, review inspection and investigation files, reports, logs, and
records. The team reviews inspection activities, mine plans, special investigations,
Safety and Health Hazardous Conditions Complaints, Alternative Case Resolution
Initiatives (ACRI) and may visit a mine site for observation.

The team conducts a close-out conference with District management at the completion
of the review to discuss findings. Within 10 working days of this conference, the team
summarizes its findings in a draft report. The District Manager reviews the draft report
and provides comments to the National Coordinator. After issuance of the final report,
the District Manager is responsible for (1) disseminating the findings to all District
personnel and developing a corrective action plan to address all findings within 15
working days, and (2) monitoring the effectiveness of the corrective action plan on an
ongoing basis.

District Peer Review Processes

DPRs are intended to provide field managers and supervisors with feedback on the
quality and conduct of their enforcement programs, and to facilitate the implementation
of timely and effective actions to eliminate the root causes of deficiencies. HQ
personnel use the results of the DPRs to assess enforcement consistency nationwide,
identify systemic weaknesses and trends, and detect potential best practices within
MSHA’s inspection programs. Each District must conduct DPRs on a selection of its
field offices annually.

Each District Manager appoints a District Peer Review Coordinator (DPRC) who
schedules, documents, and maintains records of the reviews. The DPRC also serves
as a liaison with Headquarters for preparing for and facilitating HQRs. The review team
consists of the DPRC and at least two supervisors. For the mine operation(s) selected

40                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


for review, the team examines the mine file, mine map(s), inspection notes,
citation/orders issued, and time and activity data for all inspections to assure that a
complete inspection was performed. The review also determines compliance with
Agency policies and procedures.

During the Peer Review, the team may conduct a mine visit(s) to check mine records
and observe general conditions of the mine relevant to compliance with the Mine Act,
applicable regulations, and approved plans. A site visit will also compare the actual
conditions and practices at the operation to the results documented during the previous
inspection activities under review.

After the review, the team provides documentation of the review through a summary
report and discusses its findings with the District Manger and Assistant District
Manager. The District Manager is responsible for (1) developing and implementing a
plan of corrective actions to address the findings of the Peer Review, and (2) arranging
for effective follow up to prevent recurrence of deficiencies. Evaluation on the
effectiveness of the action plan is required during future peer reviews and monitored by
the District Manager on an ongoing basis. On a semi-annual basis, the District
Manager submits a summary report to the National Coordinator. The report will identify
the offices reviewed and will summarize the serious and recurring deficiencies found
during the 6-month period.

Nationwide Reporting

The National Coordinator will submit a summary report of HQRs and DPRs to the
respective Administrator by January 31 and July 31 of each year. The report will
(1) summarize serious and recurring deficiencies found and (2) identify patterns or
trends which may have nationwide implications and potential corrective actions
proposed.




U.S. Department of Labor—Office of Inspector General                                       41
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


                                                                               APPENDIX B
Objectives, Scope, Methodology, and Criteria

Objectives

We performed audit work to accomplish three specific objectives. We answered the
following questions:

   1. Was MSHA’s Accountability Program designed to provide adequate assurance
      that CMS&H’s oversight responsibilities were effectively and consistently
      performed?
   2. Was the Accountability Program adequately and consistently implemented
      throughout CMS&H?
   3. Was CMS&H effectively using the results of its accountability reviews to report,
      monitor and improve its operations?

Scope and Methodology

To accomplish our objectives, we reviewed the current Accountability Program
Handbook and applicable Federal laws and regulations. We interviewed CMS&H
officials at Headquarters and a total of seven selected district offices (5 site visits and 2
phone interviews). For all HQRs and DPRs conducted between January 1, 2005 and
December 30, 2006, we reviewed (a) the final report, (b) all supporting documentation
examined by the review teams in preparing those reports, and (c) corrective action
plans and other documents that resulted from the reviews conducted. In addition, we
observed a CMS&H team conduct a HQR.

We tested only those controls necessary to address our objectives. We conducted
fieldwork from July 2006 through December 2006, and conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Accountability Program Handbook

We assessed the contents of the Accountability Program Handbook to (a) understand
the structure and design of the program, (b) determine whether essential elements of a
peer review program were present, and (c) assess whether controls existed to assure
proper and consistent implementation of the program throughout CMS&H.




U.S. Department of Labor—Office of Inspector General                                        43
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


Site Visits

We made site visits to CMS&H Headquarters in Arlington, Virginia; CMS&H District 5 in
Norton, Virginia; District 6 in Pikeville, Kentucky; District 10 in Madisonville, Kentucky;
and District 11 in Birmingham, Alabama. We also visited District 9 in Denver, Colorado
to observe a HQR of that district. We judgmentally selected these locations from
among CMS&H’s 11 districts as summarized in the following table.




44                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                             MSHA’s Office of Coal Mine Safety and Health
                                                           Needs to Strengthen its Accountability Program


                                                    Table # 3
                                                    Site Visits

                 CY 2005           CY 2006 (thru 6/30/06)
District
           Fatalities Injuries     Fatalities   Injuries       Total               Selection Criteria
   1           1         49            0           25           75     No HQR completed under the current
                                                                       process
   2           3          475           0           188        666     No HQR completed under the current
                                                                       process
   3           2          526          14           254         196    Ongoing MSHA Accident/Internal review
   4           2         1245          6            646        1899    Ongoing MSHA Accident/Internal review
   5           0          290           0           118         408    “Best Practice” model per MSHA
   6           3          451           3           273         730    High Fatality and Injury rate
   7           5          485           8           288         786    Ongoing MSHA Accident/Internal review
   8           0          502           0           238         740
   9           2         540           1            325        1276    HQR conducted during audit fieldwork
  10           0         279           0            153         432    Low Fatality and Injury rate
  11           4         340           1            150         495    Medium Fatality and Injury rate
       Source: OIG analysis of fatalities and injuries data provided by CMS&H headquarters
       Note: Locations selected for site visits are shown in bold italics.


       To avoid interfering in any ongoing MSHA accident investigations, we did not select
       Districts 3, 4, or 7 for site visits. We did not select Districts 1 and 2 because CMS&H
       had not yet conducted a HQR under the current Accountability Program process at
       those locations. We chose Districts 6, 10, and 11 to cover districts with a range of
       accident/fatality rates. We included District 5 because CMS&H officials stated that it
       used several “best practices”. Finally, we visited District 9 to observe a CMS&H team
       conduct a HQR. Although we did not visit Districts 1 and 4, we did interview staff in
       those districts, as recommended by MSHA, to discuss their use of internal, personnel-
       based performance measures in selecting activities to review.

       During site visits to Districts 5, 6, 10, and 11, we obtained a walkthrough of each
       district’s DPR process and interviewed key personnel using a standard set of questions
       related to our audit objectives. We also reviewed enforcement and other documents
       related to DPRs and HQRs that CMS&H conducted at those locations during our audit
       period. We conducted these steps to assess compliance with the Accountability
       Handbook. At District 9, we observed the Headquarters team conducting a HQR and
       noted the procedures used to conduct the review.

       Reviewing Headquarter and District Accountability Reports

       We reviewed Headquarters and District Accountability reports indicating deficiencies,
       best practices and corrective actions, etc., for January 2005 through September 2006.
       We reviewed this documentation to identify control points and recurring deficiencies,

       U.S. Department of Labor—Office of Inspector General                                           45
       Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


assess the distribution of best practices throughout the districts, and identify corrective
actions related to deficiencies.

Criteria

We used the following criteria to perform this audit:

     1. Selection Process:

         Association of Independent Certified Public Accountants (AICPA) Codification
            of Statement on Auditing Standards (SAS) AU 350 (Audit Sampling)

         AICPA Securities and Exchange Commission Practice Section (SECPS)
            Section 2000 (Standards for Performing and Reporting on Peer Reviews)

         AICPA - All Business News Letter (The Effectiveness of Increasing Sample
            Size to Mitigate the Influence of Population Characteristics in Haphazard
            Sampling)

         AICPA Peer Review Manual (PRM) Section 18200 (Guide for Performing
            Inspections)

     2. Independence:

         GAO-03-673G (3.03) (Standard related to independence)

         AICPA PRM Section 18200

     3. Site Visits:

         AICPA (Standard for Performing and Reporting on Peer Reviews)
            Section 57

     4. Interviews:

         AICPA Section 57

         AICPA Section 2000

         SAS AU 350

         GAO-03-673G (3.54a) (Peer Review requirements)




46                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


   5. Documentation:

        GAO-03-673G (4.22) (Standard related to audit documentation)



   6. Reporting:

        AICPA (Standard for Performing and Reporting on Peer Reviews)
          Section 113(d)

        Government Auditing Standards (GAS) 8.07 (revised 2003)

        GAO-03-673G (3.54d) (Peer Review requirements)

        GAO-03-673G (5.15) (Reporting deficiencies)

        AICPA - All Business News Letter

        AICPA PRM Section 18200

        President’s Council on Integrity and Efficiency (PCIE)

   7. Computerized Systems:

        GAO-03-673G (4.24c) (Audit documentation)




U.S. Department of Labor—Office of Inspector General                                       47
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




48                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program



                                                                             APPENDIX C
Acronyms and Abbreviations

Alternative Case Resolution Initiative                                     ACRI

Association of Independent Certified Public Accountants                    AICPA

Coal Mine Safety and Health                                                CMS&H

Department of Labor                                                        DOL

District Peer Reviews                                                      DPRs

District Peer Review Coordinators                                          DPRCs

Government Accountability Office                                           GAO

Government Auditing Standards                                              GAS

Headquarters Reviews                                                       HQRs

Mine Improvement and New Miner Response Act of 2006                        MINER Act

Mine Safety and Health Act of 1977                                         Mine Act

Mine Safety and Health Administration                                      MSHA

Metal and Nonmetal Mine Safety and Health                                  MNMS&H

Office of the Inspector General                                            OIG

Peer Review Manual                                                         PRM

President’s Council on Integrity Efficiency                                PCIE

Statements of Accounting Standard                                          SAS




U.S. Department of Labor—Office of Inspector General                                       49
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




50                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                   MSHA’s Office of Coal Mine Safety and Health
                                                 Needs to Strengthen its Accountability Program


                                                                                APPENDIX D

Management Letter and MSHA Responses




U.S. Department of Labor                   Office of Inspector General
                                           Washington, DC. 20210




September 29, 2006

MEMORANDUM FOR:                     DAVID G. DYE
                                    Acting Assistant Secretary
                                    for Mine Safety and Health




FROM:                               ELLIOT P. LEWIS
                                    Assistant Inspector General
                                    for Audit

SUBJECT:                            MSHA Accountability Program
                                    Coal Mine Safety and Health
                                    Management Letter No. 05-06-007-06-001

This memorandum discusses the initial results of our performance audit of the
Mine Safety and Health Administration (MSHA), Coal Mine Safety and Health (CMS&H)
Accountability Program. Normally, a Management Letter is provided to be read in
conjunction with an accompanying audit report. However, with CMS&H preparing to
initiate Headquarters (HQ) Reviews of Districts in five districts during the coming
months, we are issuing this Management Letter as an interim reporting mechanism to
aid in those reviews. These results are based on our work to date and were discussed
at a meeting with CMS&H officials on September 7, 2006. Fieldwork is continuing and
we will report further in a separate report when our work is completed.

We have identified five potential issues. Improvement in these areas will increase the
validity and management oversight benefits of this process. As currently defined, the
Accountability Program does not require:




U.S. Department of Labor—Office of Inspector General                                        51
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


     1) a standard process for selecting mines to be reviewed during District Peer
        Reviews and HQ Reviews of Districts;

     2) that a review team member visit those mines selected for review during District
        Peer Reviews and HQ Reviews of Districts;

     3) that a review team member interview appropriate district and/or field office
        personnel during District Peer Reviews and HQ Reviews of Districts;

     4) a standard format for District Peer Review reports and corrective action plans;
        and

     5) a centralized system for HQ to record and track the deficiencies and corrective
        actions identified during District Peer Reviews and HQ Reviews of Districts.

Based on our ongoing assessment of MSHA’s safety and health programs and
responsibilities, we initiated an audit of MSHA’s Accountability Program within CMS&H.
The Accountability Program was established to evaluate the quality of MSHA
enforcement activities by conducting peer reviews of District activities, and to provide
reasonable assurance that policies and procedures are being complied with consistently
throughout Coal Mine Safety and Health, and Metal/Nonmetal Mine Safety and Health.
We focused on the Accountability Program within CMS&H in part, because of the
increase in coal mining accidents during FY 2006. As of July 30, 2006, there were 37
fatalities in the coal mining sector, as opposed to 28 and 22 coal mining fatalities
reported for 2004 and 2005, respectively.

The Accountability Program is implemented through the policy and guidelines
established by the Accountability Program Handbook (AH04-III-10). Prior to
March 2004, the Accountability Program was an administrative evaluation that identified
problems but had no clear mechanism to correct the root cause of those problems. It
also lacked follow-up measures. The program was revised as a result of
recommendations from MSHA’s Internal Review of the Jim Walters Resources
Company, Mine No. 5. The new program is intended to streamline the process so that
corrective actions, prompted by reviews, will be made quickly and efficiently. The new
program focuses on high risk areas, such as enforcement activities, instead of low risk
administrative issues.

The Accountability Program has two levels of review, HQ Reviews of Districts and
District Peer Reviews of field offices. The HQ Reviews of Districts are comprehensive
and include in-depth reviews of the enforcement activities for a selected operation(s).
HQ conducts a review of each District Office once every 2 years. These reviews ensure
that significant issues that were identified during previous District Peer Reviews and/or
HQ Reviews of Districts have been corrected. District Peer Reviews focus on MSHA’s
enforcement systems to identify deficiencies in the level and consistency of


52                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


enforcement, concentrating on those activities that most directly affect the safety and
health of miners. Each District conducts Peer Reviews of selected field offices annually.
Results of the District Peer Reviews are used by HQ personnel to ensure enforcement
consistency nationwide. District Peer Reviews are also used to identify systemic
weaknesses and trends, as well as potential best practices within MSHA’s inspection
programs.

We have identified the following issues from our audit work to date that we believe will
enhance CMS&H officials’ ability to derive the most benefit from their District Peer
Reviews and HQ Reviews of Districts.

   1. The Accountability Program Handbook does not define or require a standard
      process for selecting a mine(s) to be reviewed during the District Peer Reviews
      and HQ Reviews of Districts. As a result, in both District Peer Reviews and HQ
      Reviews of Districts, only underground coal mines are considered for review,
      excluding surface mines and facilities from possible selection. This limits the
      value of the reviews by preventing procedural deficiencies or improprieties
      related to the oversight of surface mines and facilities from being detected and
      corrected. In addition, in District Peer Reviews, each District Manager uses
      varying criteria (e.g., size, accident rates, enforcement history, etc.) to select a
      mine(s) for review. This creates a risk that an individual could manipulate the
      selection to reduce the effort required to complete the review or to avoid
      detection of deficiencies or improprieties. While there may be acceptable
      reasons to weight the probability of selection based on various factors, the
      validity of the accountability process would be improved by assuring that all
      entities (underground, surface, and facility) have a possibility of selection and
      that the selection is not within the control of any individual (i.e., random).

   Recommendation: MSHA should develop and require a standard process for
   the selection of a mine(s) to be reviewed during both District Peer Reviews
   and HQ Reviews of Districts. The process should assure that (a) any entity
   could be selected and (b) the selection is not within the control of any
   individual. In addition to the mine(s) selected through this process, MSHA
   could, if desired, select an additional mine(s) for review based on criteria of its
   choosing (e.g., fatalities, accidents, enforcement history, size, etc.).

   2. The Accountability Program Handbook does not require review team members to
      visit the mine(s) selected for review. District Peer Reviews and HQ Reviews of
      Districts should not be based solely on an examination of various records. A
      review solely based on records increases the risk that errors (unintentional) or
      misrepresentations (intentional) in the documentation would not be detected. A
      physical tour of selected portions of the mine would provide a basis of
      comparison against events and conditions depicted in the mine’s plans and
      inspection records.


U.S. Department of Labor—Office of Inspector General                                       53
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program

     Recommendation: MSHA should require that one or more review team
     members observe selected portions of the mine(s) chosen for review. The
     scope of these observations should be sufficient to form an overall
     perspective of the mine’s condition and operation in comparison to that
     reflected by the related mine plans and records (e.g., inspector notes,
     citations, etc.).

     3. The Accountability Program Handbook does not require review team members to
        conduct any interviews in completing District Peer Reviews and HQ Reviews of
        Districts. Omitting interviews of individuals involved in or knowledgeable of
        district or field office activities (e.g., MSHA personnel, mine operators, union
        officials) limits the scope of information used to assess those offices’ operations.
        This increases the risk that operational deficiencies will not be detected.
        Interviews of appropriate individuals during District Peer Reviews and HQ
        Reviews of Districts would provide an opportunity to corroborate and expand on
        information about operational issues identified through other review sources (i.e.,
        document review and mine visits).

     Recommendation: MSHA should require that review team members interview
     appropriate individuals during District Peer Reviews and HQ Reviews of
     Districts. The scope of these interviews should address overall office
     operations as well as the information contained in any specific records (e.g.,
     inspector notes, citations, etc.) reviewed.

     4. The Accountability Program Handbook does not require a standard format for
        District Peer Review reports and corrective action plans. As a result, the
        Summary Accountability Reports that District Managers submitted to CMS&H
        officials during the period January 1, 2005 – June 30, 2006, presented peer
        review information in a variety of formats and levels of detail. This makes it
        more difficult for CMS&H HQ officials to determine that all appropriate (a) review
        work was performed, (b) results were reported, and (c) corrective actions were
        identified. It also makes it more difficult to analyze comparable information
        across districts to identify trends and systemic issues. A standard format for
        District Peer Review reports would facilitate the ability of CMS&H officials to carry
        out their oversight review and analysis.

     Recommendation: MSHA should require the use of a standard report format,
     in both presentation and content, for District Peer Review Reports and
     corrective action plans. This would help MSHA to assess the consistent
     application of policies and procedures nationwide as well as facilitate the
     identification of systemic weaknesses and the implementation of potential
     best practices.

     5. The Accountability Program Handbook does not require that CMS&H maintain a
        tracking system of deficiencies and corrective actions. Without an effective


54                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program

       method to track the results, there is an increased risk that corrective actions will
       not be timely completed and that systemic deficiencies will not be identified. A
       tracking system would facilitate CMS&H officials’ ability to assure the timely
       completion of planned corrective actions and enhance their ability to review and
       analyze systemic weaknesses and trends.

   Recommendation: MSHA should develop a system to record and track the
   results of District Peer Reviews and HQ Reviews of Districts, e.g., identified
   deficiencies, planned corrective actions, potential best practices, etc. This
   tracking system will facilitate review and analysis of systemic weaknesses and
   trends, help to ensure that corrective actions are completed in a timely
   manner, and that potential best practices are shared nationwide.

Agency Response

In response to the draft Management Letter, MSHA stated that CMS&H management
has seriously considered our suggestions and concurs that the enhancements will not
only create a more uniform and standardized approach to Headquarters and District
Peer review processes, but also assist CMS&H in strengthening this very important
oversight program. MSHA specifically agreed that the Accountability Handbook does
not require a number of processes related to the selection of mines, mine visits,
interviews, standardized format for District Peer Review reports and corrective actions,
and a centralized tracking system for deficiencies and corrective actions identified
during HQ and District Peer Reviews. MSHA’s response outlines corrective actions that
CMS&H will take to address each recommendation. The Acting Assistant Secretary’s
response is included in its entirety as an attachment.

OIG Conclusion

Based on MSHA’s response, we consider recommendations 1, 3, 4 and 5 resolved.
These recommendations will be closed upon receipt and review of the results of
MSHA’s corrective actions. With regard to recommendation 2, MSHA stated that it
would include visits to a percentage of mine(s) selected for District Peer Reviews. We
recognize that visiting all mines selected for District Peer Reviews presents a resource
issue; therefore, we will take into consideration MSHA’s proposed action as we continue
our ongoing audit of the Accountability Program.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the recommendations.
If you have any questions regarding this Management Letter, please contact Charles
Allberry, Regional Inspector General for Audit in Chicago, at 312-353-2416.




U.S. Department of Labor—Office of Inspector General                                       55
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program


Attachment

cc:    John Langton
       Acting Administrator for CMS&H

       Melinda Pon
       Special Assistant to the Administrator for CMS&H

       Kenneth Bullock
       Director, Office of Program Policy Evaluation

       Brent Carpenter
       MSHA Audit Liaison




56                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




U.S. Department of Labor—Office of Inspector General                                       57
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




58                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




U.S. Department of Labor—Office of Inspector General                                       59
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




60                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




MEMORANDUM FOR:                     DAVID G. DYE
                                    Acting Assistant Secretary
                                     for Mine Safety and Health




U.S. Department of Labor—Office of Inspector General                                       61
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




62                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




U.S. Department of Labor—Office of Inspector General                                       63
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




64                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




U.S. Department of Labor—Office of Inspector General                                       65
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




66                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




Appendix E

              Agency Response to Draft Report




U.S. Department of Labor—Office of Inspector General                                       67
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




68                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program


                                                                               APPENDIX E
Agency Response to Draft Report




U.S. Department of Labor—Office of Inspector General                                       69
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




70                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




U.S. Department of Labor—Office of Inspector General                                       71
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




72                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
                                                  MSHA’s Office of Coal Mine Safety and Health
                                                Needs to Strengthen its Accountability Program




U.S. Department of Labor—Office of Inspector General                                       73
Report Number: 05-07-002-06-001
MSHA’s Office of Coal Mine Safety and Health
Needs to Strengthen its Accountability Program




74                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-07-002-06-001
